Ti

C@QCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-153

YASMEEN DANIEL, individually, and as special
administrator of the estate of Zina Daniel Haughton,
Petitioner,

v.
ARMSLIST, LLC, an Oklahoma Limited Liability
Company, BRIAN MANCINI, and JONATHAN GIBBON,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of October, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the OPPOSITION TO PETITION FOR A WRIT OF CERTIORARI in
the above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed
to the following:

SEE ATTACHED
To be filed for:
M. Patrick Yingling Brian A. Sutherland
REED SMITH LLP Counsel of Record
10 South Wacker Dr. REED SMITH LLP

Chicago, IL 60606 101 2nd Street
San Francisco, CA 94105
(415) 543-8700

bsutherland@reedsmith.com

Subscribed and sworn to before me this 18th day of October, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LS Qudaw- 4
My Commission Expires Nov 24, 2020 ’

Notary Public Affiant 38758

 

 
Samantha Jill Katze

Manatt, Phelps & Phillips, LLP

7 Times Square

New York, NY 10036

(212) 790-4500

skatze@manatt.com

Counsel for Petitioner Yasmeen Daniel

SERVICE List

US_ACTIVE-149751338.1-BASUTHER 10/18/2019 10:45 AM
